<html>
<title> - FEMA REAUTHORIZATION: ENSURING THE NATION IS PREPARED</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
         FEMA REAUTHORIZATION: ENSURING THE NATION IS PREPARED

=======================================================================

                                (113-37)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 2, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                  U.S. GOVERNMENT PRINTING OFFICE
85-022                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>  

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
THOMAS E. PETRI, Wisconsin           ANDRE CARSON, Indiana
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD, Arkansas      Columbia
BLAKE FARENTHOLD, Texas, Vice Chair  MICHAEL H. MICHAUD, Maine
MARKWAYNE MULLIN, Oklahoma           TIMOTHY J. WALZ, Minnesota
MARK MEADOWS, North Carolina         DONNA F. EDWARDS, Maryland
SCOTT PERRY, Pennsylvania            RICHARD M. NOLAN, Minnesota
MARK SANFORD, South Carolina         DINA TITUS, Nevada
BILL SHUSTER, Pennsylvania (Ex       NICK J. RAHALL, II, West Virginia
    Officio)                           (Ex Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Bob Khan, Fire Chief, City of Phoenix, Arizona, Fire Department, 
  and Central Region Sponsoring Agency Chief, FEMA Urban Search 
  and Rescue System..............................................     8
Barry Fisher, General Manager, WFMZ-TV, Allentown, PA, on behalf 
  of the National Association of Broadcasters....................     8
Christopher Guttman-McCabe, Executive Vice President, CTIA--The 
  Wireless Association...........................................     8
Bobby A. Courtney, M.P.H., J.D., Chief Programming Officer, MESH 
  Coalition......................................................     8

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Damon Penn, Assistant Administrator, National Continuity 
  Programs, Federal Emergency Management Agency, and Fred 
  Endrikat, Urban Search and Rescue Branch Chief, Federal 
  Emergency Management Agency, joint statement \<dagger>\........    33
Bob Khan.........................................................    43
Barry Fisher.....................................................    47
Christopher Guttman-McCabe.......................................    63
Bobby A. Courtney................................................    69

                       SUBMISSION FOR THE RECORD

Association of State Floodplain Managers, Inc., testimony for the 
  record.........................................................    77

----------
\<dagger>\ Representatives of the Federal Emergency Management 
  Agency were invited to attend the hearing as witnesses. 
  However, they were furloughed as a result of the Government 
  shutdown of October 1 through October 16, 2013, and were unable 
  to attend. Their written statement was submitted for the 
  record.

  [GRAPHIC] [TIFF OMITTED] T5022.001
  
  [GRAPHIC] [TIFF OMITTED] T5022.002
  
  [GRAPHIC] [TIFF OMITTED] T5022.003
  
  [GRAPHIC] [TIFF OMITTED] T5022.004
  
  [GRAPHIC] [TIFF OMITTED] T5022.005
  


         FEMA REAUTHORIZATION: ENSURING THE NATION IS PREPARED

                              ----------                              


                       WEDNESDAY, OCTOBER 2, 2013

                  House of Representatives,
       Subcommittee on Economic Development, Public
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The committee will come to order.
    Today's hearing is the second in a series of hearings to 
examine reforms to improve our Nation's emergency management 
capability. Last month we received testimony on recovering 
quicker and smarter following a disaster. We examined the 
implementation of reforms enacted earlier this year as part of 
the Sandy Recovery Improvement Act and what additional reforms 
may be needed to streamline the process.
    Today we will hear from local officials in the private 
sector on two critical components of our preparedness and 
response system: the Integrated Public Alert and Warning 
System, or IPAWS; the Urban Search and Rescue System, or US&R.
    Many people in the public may ask, why are these programs 
important to me? Some may not recognize the acronym IPAWS, but 
I am sure they would be familiar with the Emergency Alert 
System or the National Weather Service alerts that appear on 
their televisions or radios when a tornado or flood is 
approaching, and many people may have already received weather 
or AMBER Alerts on their cell phones. All of these components 
are pieces of IPAWS, a system of systems intended to integrate 
and streamline alerts through as many devices as possible.
    It sounds pretty straightforward in this age of technology 
that we should be able to alert people through TV, radio, cell 
phone and Internet, social media, and the list goes on and on. 
But as I am sure the witnesses before us will attest, it has 
not been easy to develop this system. While the Nation's alert 
system dates back to the old Emergency Broadcast System in the 
1960s, it was not until 2006, when former President Bush issued 
an Executive order directing the development of IPAWS, that 
there was a focused effort to modernize the old system. In 
fact, it was not until 2011 that there was a nationwide test to 
make sure it would even work in the event of a Presidential 
alert.
    While the Executive order provided direction for IPAWS in 
2009, the GAO raised a number of concerns about how it was 
being implemented and how effectively FEMA was working with key 
stakeholders, such as the broadcasters and wireless industries. 
In recent years, however, I am pleased to say, we have seen 
noticeable progress. The program office for IPAWS at FEMA has 
taken GAO's findings seriously and has taken steps to try and 
address key problems identified.
    I know FEMA has worked closely with this committee to 
address concerns and ensure we can conduct effective oversight 
of the program. In fact, in a more recent review completed 
earlier this year, the GAO found improvements in how the 
program is currently being implemented.
    While there has been progress, there are still issues that 
must be addressed as IPAWS continues to expand and integrate 
additional capabilities. The national test, for example, was a 
good first step. However, there were clear gaps identified in 
our alert system that still need to be fixed. Reform 
legislation can help ensure the development of IPAWS stays on 
track and minimizes waste.
    Another area we will examine today is the Urban Search and 
Rescue System. US&R has been a model of what a Federal, State, 
local, and private sector partnership can look like. There are 
28 US&R teams across the Nation, including in my home State of 
Pennsylvania. In fact, along with Fire Chief Khan, a number of 
the other US&R team members are also present today, including 
Special Operations Chief of Philadelphia Fire Department Craig 
Murphy.
    Each team has up to 70 personnel that are cross-trained in 
areas such as search, rescue, medical, hazardous materials, and 
logistics. The teams include physicians, structural engineers, 
and first responders. They are trained and equipped with help 
from FEMA and are called up by FEMA when needed to respond 
following a disaster.
    While the members of these teams are not Federal, they do 
not hesitate to respond to disasters in other States and even 
internationally, such as following the earthquake in Haiti. 
These teams have been deployed over the years to many 
disasters, including the 9/11 World Trade Center terrorist 
attacks, Hurricane Katrina, and more recently Hurricane Sandy 
and the Colorado floods and storms.
    The problem has been that these team members, when 
Federalized, do not have clarity on liability and compensation 
issues. It is amazing that we ask men and women to go into 
collapsed structures searching for trapped survivors without 
providing them clarity on their legal status when it comes to 
liability issues and injuries.
    We want to explore today how US&R works, how US&R teams 
have responded to recent disasters, and what reforms may be 
needed to protect team members.
    I thank all of the witnesses for being here today, and I 
also would like to acknowledge and welcome Mr. Fisher, general 
manager of a broadcast station in my home State of 
Pennsylvania. Thank you all for being here today.
    I now call on the ranking member of the subcommittee, Mr. 
Carson, for a brief opening statement.
    Mr. Carson. Thank you, Chairman Barletta.
    Good morning and welcome to our distinguished panel of 
witnesses; also to Chairman Shuster who is here.
    I want to note at the outset that while the issues before 
us this morning are important, I believe that--as a former law 
enforcement officer this is an issue that is near and dear to 
my heart--but I personally believe that we are really doing a 
disservice to the American people. The shutdown has real-life 
impacts, and holding a hearing on a topic unrelated to the 
reopening of our Government, no matter how critical, is really 
counterproductive.
    We all know by now that the last shutdown, in the 1990s, 
cost over $1 billion, waste we can expect under this shutdown 
as well. This is money that emergency management programs like 
these could put to better use. Moreover, FEMA, a very relevant, 
critically important witness to the issues before us today, 
cannot attend because of the shutdown. Yes, we have their 
written testimony, but that is not the same as having a 
representative testify and respond to questioning. There is no 
urgent reason to hold this hearing today and it should have 
been postponed, quite frankly.
    But since the hearing is moving forward, I am very pleased 
that Hoosiers are well represented by Mr. Bobby Courtney with 
the Medical Emergency Services For Health Coalition. The MESH 
Coalition, which is located in my district, is one of only 
three entities of its kind nationwide. MESH supports healthcare 
emergency management, and this includes using emergency alerts 
to coordinate hospital preparedness, as well as working with 
emergency managers to provide real-time hospital capacity 
information.
    Today's hearing addresses very essential disaster 
preparedness and response functions, and I am happy to be here 
today, Mr. Chairman. And as Mr. Courtney can attest, modern 
technologies like IPAWS are a critical part of disaster 
response preparation. Several times a year the emergency 
response personnel like these leave behind their families to 
help those in need, and when they do Congress has a 
responsibility to make sure that they are supported. We must 
provide them with assurances that they and their families will 
be taken care of if they are hurt in the line of duty. This is 
something we can always do better, and so I am glad that it is 
a part of today's discussion.
    I welcome the testimony from today's witnesses as we 
consider priorities and provisions for this committee's 
upcoming FEMA reauthorization legislation.
    Thank you, Mr. Chairman.
    Mr. Barletta. Thank you, Ranking Member Carson.
    At this time I would like to recognize the chairman of the 
full committee, Mr. Shuster.
    Mr. Shuster. Thank you, Chairman Barletta. Thank you for 
holding this hearing today. The ranking member is correct that 
this shutdown is affecting all Americans, and we urge that the 
Senate and the President come to the table so we can dispense 
with this shutdown and get back on with business.
    I also want to just point out to make sure that everybody 
understands that FEMA provided us with testimony before the 
shutdown occurred, so we have their written testimony, and I am 
sure in the coming days when we solve this shutdown we will be 
talking with the folks at FEMA concerning these issues we are 
talking about today.
    But it is affecting all Americans. In fact, it is affecting 
this committee. We have furloughs beginning this week in our 
committee staff and our personal offices. So, again, we all 
want to get back to work and make sure that the Government is 
functioning for the American people.
    But, again, I want to thank Chairman Barletta for holding 
this hearing on FEMA reauthorization, ensuring that America is 
prepared for the next incident, and I think we all know there 
will be another incident, it is just when and where.
    I also want to welcome Mr. Fisher also from my home State 
of Pennsylvania. Thanks for making the trip down here.
    Last month the subcommittee held a hearing focusing on 
recover and rebuilding following disasters and reforms we 
enacted as part of the Sandy Recovery Improvement Act of 2013. 
Today we are focusing on those key programs that are critical 
to our Nation's preparedness and response capabilities, the 
IPAWS and the Urban Search and Rescue System. In previous 
Congresses this committee has proposed and passed reforms to 
improve capabilities, and we continue exploring similar reforms 
in the FEMA reauthorization, this bill, as I said, that 
continued examination of legislation clarifying those 
protections.
    I also want to thank our stakeholders for being here. I 
think it is extremely important that as we develop legislation, 
reforms, that the folks that are out in the real world that 
have to deal with them are testifying before us. You provide us 
with great insight, and I hope that we are going to make this a 
model for the committee, what Mr. Barletta is doing here today, 
and we have done that on water resources development and other 
bills that we are moving forward to make sure that stakeholders 
are at the table and get their say because we learn so much 
from your real world experiences. So, again, thank all of you 
for being here today.
    With that I yield back, Mr. Chairman.
    Mr. Barletta. Thank you, Mr. Chairman.
    I would like to recognize Congresswoman Norton, if she has 
any opening comments she would like to make.
    Ms. Norton. Thank you very much, Mr. Chairman. I am very 
pleased to see this bill. This bill came forward in the last 
Congress. It is a bill of some specific urgency as we have seen 
more events evolve beyond the original 9/11 events where 
communication is everything. I understand, of course, that 
there were some outstanding issues, and we agreed that we would 
work those through. So I am very pleased that we are looking 
specifically at the issues that had remained outstanding and 
believe and hope that, with them cleared up, this FEMA 
reauthorization can finally make it through.
    And I thank you very much for bringing this forward. It is 
an urgent and important piece of legislation. And I am pleased 
to be here with the new ranking member as well, who I see is 
settled in quite comfortably and quite well.
    Thank you.
    Mr. Barletta. Thank you.
    I would like to recognize Mr. Mullin for a brief opening 
statement.
    Mr. Mullin. I don't know if you can call it a statement, 
more it is a gripe. I hear my colleague on the other side that 
is going to complain about us holding a hearing. Well, what are 
we supposed to do? Supposed to go back to our office and sit 
there, watch movies, play cards? We are here to work.
    The gentlemen that are sitting in front of us, they don't 
have a choice. If called, they are going to go to work. Until 
we can figure out how we are going to work together, how we are 
going to move forward, what do we propose? We have to work.
    Party politics is causing this gridlock to begin with, and 
unfortunately we are playing with real people's lives. We have 
a situation that is in front of us that we have got to take 
care of. We are talking about responding in the most critical 
times, and my colleague from the other side is going to 
complain because we are having a hearing? That is absurd. We 
have got to continue moving forward regardless.
    I am glad I am here. I am glad I am still not just sitting 
in my office. I am glad I am ready to go to work. And we are 
still going to be one day moving this ball forward. This 
gridlock isn't going to last forever. Why have a backlog here? 
Let's be ready to act immediately. And that is what we are 
trying to do in this committee, is we are trying to make sure 
that we are ready to move forward. We have done that in this 
committee over and over and over again. We have had bipartisan 
approaches over and over and over again and our chairman has 
shown that. And to sit here and get slammed because we are 
having a committee hearing is ridiculous.
    So thank you for being here. I am going to listen to 
everything you have to say. And I hope--I hope--that we get 
this right, because so far we are getting it wrong up here in 
DC.
    Thank you.
    Mr. Barletta. Thank you, Mr. Mullin.
    I would like to recognize Mr. Walz for opening comments.
    Mr. Walz. Well, thank you, Chairman, and thank the ranking 
member.
    I, too, would like to thank you for traveling here and 
coming.
    I would respond to that, to the gentleman. We are high and 
dry up here, receiving a paycheck. FEMA representatives and 
FEMA V in Chicago are not today. I think that the ranking 
member's position was clear. I don't know if we are writing for 
Jon Stewart now or not. The title of the hearing is ``FEMA 
Reauthorization: Ensuring the Nation is Prepared.''
    FEMA is not there, and they are not there because they are 
furloughed. That is where the anger lies. Of course we should 
be here working. This is about partnerships. Every one of these 
gentleman is going to testify that it is about building a 
partnership. What they do is critically important. What FEMA 
does is critically important. They are not here because of us. 
That is the point. So let's fix that part first so FEMA can 
come here and do their job.
    Nobody is disagreeing that we want to do what is right by 
our people, but it is not sitting here at a dry dais. FEMA is 
the one who walked through the crap in Rushford when we had the 
flooding and the sewers backed up.
    Mr. Mullin. Will the gentleman yield?
    Mr. Walz. Not at this time. I came here, too, to do my job. 
I came here, too, to talk to that. I want to talk to FEMA. They 
are not here because they can't be, and the frustration lies in 
do you want to pretend like everything is fine, you want to 
pretend and write a hearing that is ensuring the Nation is 
prepared. They are not prepared today. That is where the 
frustration lies. Not a question of whether we are going to 
posture who is working harder, not who is coming to do here, 
not that we are going through this. The frustration lies in fix 
first problems first. We fix the shutdown, FEMA can show up. We 
fix it where FEMA is showing here, we can fix this 
communication issue.
    I have stood on the top of garages in Rushford, Minnesota, 
because we had no communication. I have talked to a sheriff who 
left his vehicle to jump over a hot power line to pull somebody 
out of an oncoming tornado in Albert Lea and had no 
communication back. His people lost where he was at.
    This issue of being able to communicate, this issue of 
preparedness, this issue of interoperability, Federal, State, 
National Guard, local law enforcement, first responders, and 
all that is critically important. But when we break that chain 
and one of our critical partners is not here--the chairman is 
right, they provided their testimony ahead of time. Did they 
provide sandbags ahead of time in case we need them if they are 
there?
    This is about getting it right. So the posturing again and 
the frustration, the gentleman is a friend of mine. I trust his 
judgment. I know he is working. I know you want to be here. I 
don't question your work ethic. I question what the chairman 
was saying on this is let's go take up that business first. We 
can end this today.
    And, yes, I understand the chairman has a different point 
on how we can get to that, but if I am the American people 
looking on here and we are holding a hearing on ensuring the 
Nation is prepared, FEMA is not here because of layoff, I call 
Region V and ask where they are at. You have dedicated public 
servants here who want to get this right and they are looking 
at saying, what is this nonsense?
    Mr. Mullin. Will the gentleman yield?
    Mr. Walz. Yes, I will yield to my friend.
    Mr. Mullin. The first responders isn't FEMA, the first 
responders are the men and women back home like our volunteer 
fire department, our volunteer police department, which I am a 
volunteer. And we are the first responders. I understand FEMA 
is not here, but FEMA is just a little bit of the niche.
    Mr. Walz. A little bit of the niche?
    Mr. Mullin. They are not the first ones to walk in. We are 
the first ones to walk in. And as far as the paycheck, I am 
giving mine back to the Treasury.
    Mr. Walz. So am I, and I reclaim my time. That is not the 
posturing we need.
    Mr. Mullin. OK, but----
    Mr. Walz. No, I reclaim my time.
    Mr. Mullin. OK.
    Mr. Walz. I reclaim my time.
    The point about this is, so now we are going to elevate one 
group over another. I respect the first responders who are 
there, but my people will tell you this: Without FEMA being 
there and without that you are never made whole again. So if we 
are ensuring the Nation is prepared, we are going to pick the 
winners and losers and put it here and denigrate the Federal 
employee at FEMA who is not here to defend themselves and the 
work they have done. No one is criticizing or trying to pick 
who does a better job. We are all in it together. And so my 
frustration lies is, is that, yeah--well, I am here to hear the 
witnesses. I yield back.
    Mr. Barletta. Thank you.
    I would like to recognize Mr. Meadows for opening comments.
    Mr. Meadows. I just want to say thank you, gentlemen, for 
being here. Thank you for your service. I enjoy great support 
from the men and women who respond, who truly miss 
anniversaries and birthdays and special events to make sure 
that they serve the people. And I just want to say a very 
heartfelt thank you for the job that all of you do to make 
sure. Because the only time, the only time that you ever get 
recognized or highlighted is when you don't do your job well, 
and that is a sad commentary.
    And so today I want to go on record to say thank you for 
doing your job well, thank you for answering a call, because 
indeed it is a call to serve our Nation, to serve our 
communities, to serve families and friends. You answer that 
call. Day in, day out you stand on ready, for when the alarm 
goes off and we have a need you are there. I just want to say 
thank you on behalf of a grateful Nation, on behalf of a 
grateful community. And I am committed to work around the clock 
in a bipartisan fashion to make sure that not only we address 
these issues, but also that we are better prepared going 
forward.
    I was able to participate in a FEMA drill for natural 
disasters, saw it firsthand, saw the unbelievable coordination, 
setting up cities at an event where we can truly make sure that 
every single detail is taken care of, rehearse over and over 
and over again, so that nobody comes in harm's way. And so I 
want to say thank you.
    I yield back, Mr. Chairman.
    Mr. Barletta. I recognize Mr. Nolan for some opening 
comments.
    Mr. Nolan. Thank you, Mr. Chairman.
    I, too, would like to express my thanks and gratitude to 
the local, State and Federal FEMA officials who are, if not 
first, why, they are right behind the first responders, and I 
know in many cases they are first to help people during these 
tragic times.
    But I would like to, if I might, at the risk of sounding 
Pollyannic here, associate myself with the remarks of both our 
good friend Representative Mullin and my very dear and beloved 
friend Representative Walz and ask that we all give serious 
consideration to the solution to this Government shutdown and 
crisis that precludes Federal FEMA officials from being here, 
that we all give serious consideration to the solution that all 
of the observers of the process in this town know what the 
solution and the answer is, and that is to go to our Speaker 
and to convince him to allow us a simple vote on a continuing 
resolution to fund the Government at the current levels.
    And I don't mind telling my colleagues that many of us on 
this side of the aisle, myself included, were prepared to vote 
against the continuing resolution which funds the Government at 
2008 levels and maintains sequesters, both of which most of us 
on this side of the aisle oppose. But we are prepared to vote 
for that and to make that compromise. And we are not talking 
about putting that in stone, you know, ad infinitum into the 
future. Just give us a vote and join us in pleading with the 
Speaker to give us a simple vote on a clean resolution to fund 
the Government at these levels for the next 4, 5, 6 weeks, and 
then we can carry on and have this debate about all the 
important and great issues of our time, not only the Affordable 
Care Act, but the future of FEMA and tax reform and immigration 
and trade and all the great issues.
    So forgive me for getting a little off track here, because 
I know we are here to talk about FEMA. But the way to get FEMA 
here is for all of us to join in allowing a vote on a simple, 
clean CR, and then we can all get back to the business, 
Markwayne, that you so eloquently have articulated the need for 
us to do.
    Thank you.
    Mr. Barletta. Thank you.
    And let me just say that I certainly appreciate my 
colleagues' strong feelings, and they are all warranted, and I 
certainly understand where they are coming from. But just for 
clarity for the public to make it clear that FEMA is still 
responding to disasters. They are still available to respond. 
They are limited in the activities to only protecting life and 
property, and that is why they are not here today. The Disaster 
Relief Fund is fully appropriated, and that is why they can 
continue to respond to disasters.
    So our panel today, and again we would like to thank you 
all for being here, Mr. Bob Khan, fire chief, city of Phoenix, 
Arizona, and central region sponsoring agency chief, FEMA Urban 
Search and Rescue System. Mr. Barry Fisher, general manager, 
WFMZ-TV, Allentown, Pennsylvania, on behalf of the National 
Association of Broadcasters. Mr. Christopher Guttman-McCabe, 
executive vice president, CTIA--The Wireless Association. And 
Bobby Courtney, chief programming officer, the MESH Coalition.
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered.
    Since your written testimony has been made a part of the 
record, the subcommittee would request that you limit your oral 
testimony to 5 minutes.
    Fire Chief Khan, you may proceed.

 TESTIMONY OF BOB KHAN, FIRE CHIEF, CITY OF PHOENIX, ARIZONA, 
 FIRE DEPARTMENT, AND CENTRAL REGION SPONSORING AGENCY CHIEF, 
  FEMA URBAN SEARCH AND RESCUE SYSTEM; BARRY FISHER, GENERAL 
  MANAGER, WFMZ-TV, ALLENTOWN, PA, ON BEHALF OF THE NATIONAL 
   ASSOCIATION OF BROADCASTERS; CHRISTOPHER GUTTMAN-MCCABE, 
 EXECUTIVE VICE PRESIDENT, CTIA--THE WIRELESS ASSOCIATION; AND 
  BOBBY A. COURTNEY, M.P.H., J.D., CHIEF PROGRAMMING OFFICER, 
                         MESH COALITION

    Chief Khan. Thank you, Chairman Barletta, Ranking Member 
Carson, and distinguished members of the committee. This is a 
great opportunity to appear before the U.S. House of 
Representatives Subcommittee on Economic Development, Public 
Buildings, and Emergency Management.
    My name is Bob Khan. I am a 31-year member of the Phoenix 
Fire Department. In that role I serve as the task force leader 
for Arizona Task Force 1, one of 28 Urban Search and Rescue 
teams in the Federal Emergency Management Agency. I have been 
asked to serve the FEMA Urban Search and Rescue Program as one 
of three sponsoring agency chief representatives representing 
the 10 central region teams.
    I appear before you today as a sponsoring agency chief. I 
want you to know how proud I am of this program. The men and 
women that serve the Nation through the US&R program are 
competent and committed professionals that care deeply for the 
program and for the citizens that we serve.
    Each and every team member is a professional provider in 
his or her town or village. Whether a firefighter or medical 
doctor or trained search dog handler, these personnel respond 
to natural disasters with the same skill sets that they apply 
every day in their hometowns. The concept is fairly simple: 
utilization of an all-hazards approach to incident mitigation 
using special training, special equipment, and very special 
people.
    The US&R system is part of a tiered approach to disaster 
management. The system has the capability to augment local and 
State resources with federally sponsored teams that can readily 
plug into operations at the local level following the National 
Incident Management System model. These US&R teams are made up 
of local providers that are on their own local payrolls until 
activated. They are far less expensive to maintain than a 
resource that may be fully funded by the Federal Government.
    The 28 US&R teams and their localities benefit from 
training, equipment, and experience that come from being part 
of this great program. Just as the system members apply the 
skills learned at home to national disasters, they apply the 
lessons learned while on Federal missions to emergency or 
planning needs of their local jurisdictions.
    The same search and rescue methods that were utilized and 
refined during responses to September 11th, Hurricanes Katrina, 
Sandy, and tornado responses in Oklahoma, are performed daily 
throughout your hometowns in America by our members. Many of 
the planning methods learned by the team members in this system 
were applied just 2 weeks ago while responding to the Colorado 
floods.
    All five of the task forces deployed to the recent flooding 
in Colorado were from the central region. Our training and 
equipment worked and saved lives. These deployed teams knew 
each other and operated from a common operating platform 
grounded in training, similar equipment, and common policies. 
Many of the areas in Colorado, because of the flooding, were 
only accessible by aircraft or boats. Fortunately for the 
victims in Colorado, all 28 task forces were able to increase 
their water operation capabilities by adding needed watercraft 
to their equipment cache during this past fiscal year, which 
allowed us more effectively to respond to the vast needs that 
resulted from this catastrophic flooding.
    Several of the remaining 28 US&R teams were on standby at 
their points of departure waiting to be deployed as either 
augmentation or relief of the first teams that had been 
deployed. The US&R program office worked diligently to 
coordinate the deployment of the teams and to ensure the 
practices applied to any domestic response would also be 
consistently applied here in Colorado. As the central region 
sponsoring agency chief of the deployed teams, it was 
gratifying to know that the Federal support was there and the 
activation orders were spelled out.
    In the aftermath of the tornado-caused destruction in 
Oklahoma, capabilities brought to the theater of operation 
included structural evaluation of buildings by structural 
engineers, including stabilization of damaged structures, 
including shoring, cribbing of walls, roofs, and flooring, 
along with critical expertise needed to determine the 
structural integrity of a building prior to inserting teams 
with search and rescue efforts of any possible victims. In 
comparison to a typical local first responder, a US&R task 
force is able to conduct physical search and heavy rescue 
operations in collapsed reinforced concrete buildings.
    From a sponsoring agency chief's perspective there are 
legal and financial liabilities that we are concerned of. We 
want to send the best trained teams to assist other teams while 
assuring our localities are not left vulnerable and exposed. In 
this economic climate, expenses that have been borne by 
sponsoring agencies in the past are being more closely 
scrutinized by our localities. Many of the sponsoring agencies 
are suffering cuts that have not been seen in 30 years. We feel 
it is important for this program to have consistent funding in 
order to support training and exercises, acquisition and 
maintenance of equipment, and medical monitoring for 
responders.
    Workman's compensation and liability protection for our 
civilian personnel are also of critical importance. There is a 
very real risk of injury and death to our task force members 
when they are deployed. God forbid anything awful happen here.
    These are things that we have to think about to ensure the 
proper liability protections, coverage, and compensation, and 
making sure they are in place for their family members. 
Additionally, we want to assure our deployed members' jobs 
remain safe until they return home. These assurances protect 
civilians from the US&R program from employment discrimination 
and retaliation as a result of engaging in Federal activities.
    In conclusion, I am thankful to the committee for this 
opportunity to discuss the US&R program and how it benefits our 
communities. We look forward to working with the committee on 
the FEMA reauthorization and stand by to make any assistance 
proven to make the system better for the future. Thank you.
    Mr. Barletta. Thank you for your testimony, Chief Khan.
    Mr. Fisher, you may proceed.
    Mr. Fisher. Good morning, Chairman Barletta, Ranking Member 
Carson, and members of the subcommittee. My name is Barry 
Fisher. I am the president and general manager of WFMZ-TV, 
Allentown, Pennsylvania. We are a community-oriented local 
broadcaster with 83 live newscasts each week and a 24-hour 
digital weather channel. I am here today representing the 
National Association of Broadcasters. Thank you for this 
opportunity to speak to you today about emergency 
communications and the valuable asset of often lifesaving 
services that local broadcasters provide during emergencies.
    When the power goes out, when phone service is limited, 
when the Internet goes down, broadcasters are always there and 
always on the air. Broadcasters are first informers. We are the 
go-to source for vital information before, during, and after an 
emergency. I would like to show you a brief video clip that 
underscores the critical services broadcasters provide.
    [Video shown.]
    Mr. Fisher. During Hurricane Sandy, WFMZ provided around-
the-clock coverage to our viewers to keep them informed. We 
knew there would be widespread power and communication outages, 
so we began alerting the public about what areas would be hit, 
what essentials were needed, and how to stay safe. We also 
encouraged our viewers to buy battery-operated televisions in 
case they lost power. In one of our counties in the viewing 
area, an estimated 67 percent of the county was without power, 
but we stayed on the air, keeping viewers abreast of what was 
happening. We worked closely with local radio stations to 
simulcast our news to reach people without battery-operated 
televisions.
    This type of cooperation among broadcasters is common 
during emergencies. I am proud of our station's performance 
during Hurricane Sandy, as well as all broadcasters in the 
storm zone.
    We are also proud to be the backbone of the emergency 
communication system. The EAS is a national public warning 
network that connects public safety authorities to the public 
through over-the-air broadcast stations with the simple push of 
the button. We consider the delivery of timely alerts and 
warnings to be the most important use of our spectrum and an 
indispensable service to the public.
    The EAS is also used for AMBER Alerts, which was created by 
broadcasters and local law enforcement in 1996. To date, AMBER 
Alerts have aided in the successful recovery of over 656 
abducted children across the United States.
    Broadcasters have made investments in their Internet and 
social media sites, some of the most viewed content on the Web. 
When the public receives an email, text, alerts, or social 
messages from local broadcasters, they know it is accurate and 
from an authoritative source. In fact, even wireless alerts 
received on your mobile phone direct you to local media for 
more information.
    In November 2011, FEMA and the FCC conducted the first ever 
EAS test where broadcasters participated across the United 
States. The test served its purpose to diagnose problems in the 
system that are now being addressed. This is precisely why NAB 
fully supports EAS testing on a regular basis.
    The continued success of EAS depends on a few factors. 
First, State and local safety officials should receive ongoing 
training in the proper use and to protect the integrity of the 
EAS system. Broadcasters stand ready to deliver the message, 
but we first need someone to deliver it to us. We strongly urge 
the committee to incorporate training into any legislation that 
is considered.
    Second, we ask the committee to create a national advisory 
committee on emergency alerting. The committee would bring all 
stakeholders together to ensure continual improvements to the 
system.
    I am grateful for this opportunity to share my views on 
this indispensable role that broadcasters play in communicating 
emergency information to the public. We look forward to working 
with you toward our shared goal of keeping the American people 
safe through timely alerts and warnings. Thank you very much 
for your time.
    Mr. Barletta. Thank you for your testimony, Mr. Fisher.
    Mr. Guttman-McCabe, you may proceed.
    Mr. Guttman-McCabe. Thank you and good morning, Chairman 
Barletta and Ranking Member Carson and members of the 
subcommittee. Thank you for the opportunity to participate in 
this morning's hearing.
    My name is Chris Guttman-McCabe and I serve as the 
association's executive vice president. In this role I have 
been involved in the wireless industry's efforts to implement 
the Commercial Mobile Alert Service, and I am pleased to be 
here today to update you on the wireless industry's efforts to 
deliver a state-of-the-art alerting system to America's 
wireless consumers.
    The Commercial Mobile Alert Service, which has been renamed 
Wireless Emergency Alerts by the FCC, grew out of the Warning, 
Alert and Response Network Act, which became law as part of the 
SAFE Ports Act in late 2006. The WARN Act was intended to 
harness the creativity of the wireless ecosystem and take 
advantage of the ubiquity of the mobile platform to augment the 
existing emergency alerting system, all without imposing new 
substantial costs or technology mandates on the wireless 
ecosystem. This approach was consistent with and built upon 
previous public-private partnerships that led to the successful 
creation of the Wireless Priority Service and the AMBER Alert 
programs.
    In the WARN Act, Congress developed an innovative procedure 
to address the problem of emergency alerting by securing the 
participation of interested nongovernmental parties in the 
development and deployment of what has become a 90-character, 
geotargeted alerting capability that lets consumers carrying a 
wireless device know that there is an imminent threat to health 
or safety.
    The Wireless Emergency Alert system went live in April 2012 
and since then carriers serving 98 percent of U.S. wireless 
consumers have opted to participate in the program. Over the 
last year alone, more than 8,600 Wireless Emergency Alerts have 
been issued and many have played a key role in protecting the 
public. These include AMBER Alerts that have helped to directly 
recover abducted children, including an 8-month-old in the 
State of Minnesota, and 8- and 6-year-old children in 
Pennsylvania. The alerts also have directed the public to take 
shelter, evacuate, or engage in some other action in the face 
of impending danger, often from weather events.
    As the examples highlighted in my written testimony 
demonstrate, the Wireless Emergency Alert program is working, 
offering a valuable mobile augmentation to the Emergency Alert 
Broadcast System we all grew up with while giving emergency 
managers a, quote/unquote, ``game changer'' that helps them to 
inform and protect members of the public who may not be within 
reach of traditional television or radio alerts.
    While industry is working hard to make the Wireless 
Emergency Alert program an ongoing success test, the 
effectiveness of the effort also depends on how well the public 
understands and uses the system. While carriers and others in 
the industry can and do provide important assistance in the 
area of education, FEMA and other Government agencies have an 
important role to play to promote uniform and comprehensive 
education across all parts of the country and all affected 
sectors of the emergency response community.
    We applaud FEMA on its recent rollout of a public service 
announcement on Wireless Emergency Alerts, and we agree that 
this should remain a focus for FEMA and its IPAWS office. 
Moreover, it is incumbent on alerting authorities to similarly 
educate their constituents about the alerts they may send, as 
only they have the knowledge to answer specific questions about 
incidents and alerts in their area.
    The wireless industry is committed to working with FEMA and 
the FCC to ensure that subsequent generations of the alert 
system support additional functionality and granularity. With 
this in mind, we do not believe that wireless carriers that 
participate in the Wireless Emergency Alerting system should be 
subject to any new requirements that emanate from the 
implementation of IPAWS. While IPAWS may help to modernize the 
distribution of alerts on other communications platforms, the 
WARN Act framework remains the proper path to deliver and 
modernize emergency alerts provided over wireless networks. 
CTIA urges you to keep this in mind as you consider legislative 
efforts to modernize IPAWS and reauthorize FEMA.
    Thank you again for the opportunity to participate in 
today's hearing. CTIA looks forward to working with the 
subcommittee, FEMA, and others in the public safety community 
to ensure that the Wireless Emergency Alert program continues 
to offer a unique and useful way to help protect the American 
public. I look forward to your questions.
    Mr. Barletta. Thank you for your testimony, Mr. Guttman-
McCabe.
    Mr. Courtney, you may proceed.
    Mr. Courtney. Thank you. Good morning, Chairman Barletta, 
Ranking Member Carson, and members of the subcommittee. On 
behalf of the MESH Coalition, I appreciate the opportunity to 
describe our efforts to ensure that central Indiana communities 
are prepared to respond to emergency events, and I applaud your 
commitment to these important issues.
    I am pleased to report at the outset of my testimony that 
as a result of cooperative efforts of central Indiana 
healthcare, public health, emergency management, and public 
safety partners through the MESH Coalition, that the healthcare 
infrastructure in central Indiana is well positioned to respond 
to a wide range of emergency events.
    The MESH Coalition is a nonprofit public-partnership that 
enables healthcare providers to effectively respond to 
emergency events and remain viable through a recovery. Our 
programs increase capacity in healthcare providers to respond 
to emergency events, protect our healthcare safety net, and 
promote integration and coordination between the Government and 
private sector.
    Today I would like to briefly share three points with you. 
First, through a comprehensive portfolio of programs, the MESH 
Coalition is continuously improving central Indiana's ability 
to mitigate against, prepare for, respond to, and recover from 
both small and large-scale emergency events. Second, the MESH 
Coalition is one of the most progressive models of healthcare 
emergency management, and we believe it can and should be 
replicated throughout the United States. Third, we believe that 
in order to promote the adoption of healthcare coalitions, we 
must find creative and cost-effective ways of providing 
sustainable support to these efforts while maintaining 
appropriate stewardship of public resources.
    With respect to MESH Coalition programs, in order for 
healthcare providers to prepare for emergency events they must 
understand threats to the healthcare system and know how to 
mitigate against them. Analysts in our healthcare intelligence 
program conduct real-time monitoring of public and private data 
and disseminate information on potential threats in order to 
develop a common operating picture every day.
    Our community-based planning program involves the whole 
community in preparing for potential threats, as well as large-
scale anticipated events. Our staff facilitate a number of 
working groups helping participants develop plans and programs 
that we implement throughout the year. Our policy program 
provides objective analyses of policy issues designed to assist 
coalition partners with planning for long-term sustainability 
following an emergency event.
    We know that the difference that makes a difference between 
healthcare organizations that respond effectively to emergency 
events and those that don't is clinicians that make good 
decisions under tough conditions. As such, our training and 
education programs focus on clinical decisionmaking that is 
hands on, practical, and uses high-fidelity simulation to 
prepare providers to respond to all hazard scenarios.
    In addition, we are committed to training the future of the 
healthcare emergency management workforce, as evidenced by our 
multidisciplinary internships and fellowships that include 
physicians, nurses, public health graduate students, law 
students, and librarians.
    Under the authority of the Marion County Public Health 
Department director and in cooperation with the Indianapolis 
Department of Public Safety, we also serve as the Marion County 
Multi-Agency Coordination Center, or MedMACC. The MedMACC is 
staffed 24 hours a day, 365 days a year, to provide a critical 
operational link between central Indiana healthcare facilities, 
the Marion County Public Health Department, and the governments 
of the city of Indianapolis and the State of Indiana. As you 
can see, our programs are ambitious and address the entire 
emergency management process.
    The second point I would like to share is that the MESH 
Coalition is one of the most progressive models of healthcare 
emergency management in the United States, and we believe it 
can and should be replicated throughout the Nation. The U.S. 
Department of Health and Human Services has identified the 
strength of the coalition model and is working to encourage its 
adoption through two emergency management grant programs.
    We are also helping to promote coalition building through 
the National Healthcare Coalition Resource Center, a 
partnership between MESH, the Northwest Health Care Response 
Network in King and Pierce Counties, Washington, and the 
Northern Virginia Hospital Alliance.
    The MESH Coalition is also sustainable, as we pair grant 
funding with private subscription fees and fee-for-service 
funding. Nearly 55 percent of our 2013 budget came from private 
funds, and we expect this to grow in 2014. This does not mean 
that Federal funding is unnecessary. Indeed, our coalition was 
started with HHS funding and has been maintained in part by 
funding from the Department of Homeland Security's MMRS and 
UASI programs.
    Finally, we believe that in order to promote the adoption 
of healthcare coalitions, we must find creative and cost-
effective ways of providing sustainable support to these 
efforts while maintaining appropriate stewardship of resources. 
While grant funding alone is not a sustainable solution to 
protecting and preserving public health and safety, private 
sector health care should not be solely responsible for 
responding to emergencies of national significance. This is why 
FEMA's role in supporting citizens and first responders is so 
critical. Hospitals cannot and should not be expected to bear 
this burden alone.
    Chairman Barletta, Ranking Member Carson, and members of 
the subcommittee, on behalf the MESH Coalition, I thank you for 
your leadership and for the opportunity to describe our efforts 
to ensure that central Indiana communities are prepared to 
respond to emergency events. We hope that our experience will 
provide insight for other communities across the country. Happy 
to respond to any questions you may have.
    Mr. Barletta. Thank you for your testimony, Mr. Courtney.
    I will now begin the first round of questions, limited to 5 
minutes for each Member. If there are additional questions 
following the first round we will have additional rounds of 
questions as needed.
    Mr. Khan and Mr. Fisher, can each of you briefly talk about 
why each of these two systems, US&R and IPAWS, are so critical 
to ensuring we are prepared as a Nation? Mr. Khan, do you want 
to go first, Chief Khan?
    Chief Khan. Mr. Chairman, thank you for the question. If 
you look at the local resources that respond to an emergency, 
to be blunt, no matter how large they are, even New York City, 
they soon become overwhelmed with a significant event. These 28 
teams can deploy, the first three closest teams can deploy 
immediately, and then followed by a box deployment that we have 
in place. And they are 72-hour, self-sustained teams with the 
ability to do search and rescue, different operations for 
emergency services, under the all-hazards umbrella.
    As those local resources get deplenished from the emergency 
itself, we can come in as a fresh set of hands all working on 
the same page with the same equipment and provide rescue, 
search, and treatment to a lot of the people that are out there 
who need help. We did it in Katrina, we did at the World Trade 
Center, we did it most recently in New York where we were doing 
humanitarian efforts. That ability enables the local 
jurisdictions to do the work they would normally do and not be 
overwhelmed simply with the number of victims that we have seen 
with either manmade or natural disasters.
    Mr. Fisher. IPAWS is important because we all have to be 
speaking the same language and communicating as clearly as 
possible so that when an emergency occurs, the information that 
is important gets to the people that are affected, and is 
delivered quickly, efficiently, and clearly.
    And when you are speaking on a national level, when we have 
only first done our test in 2011 on a national level, it 
becomes even more important that should communication systems 
be interrupted, that there is some way to get messages through 
to the public, multiple ways to get it through, but IPAWS is a 
good start for getting everyone speaking on the same page so 
that the message is received and that platforms across the 
universe--television, radio, wireless communications, 
billboards along the roads, whatever method it is--can take 
this information and immediately put it out. And IPAWS is the 
beginning of that, it is the framework, and it is important to 
continue pursuing cooperation between everyone in developing 
IPAWS so that it is fulfilled in a way that is universal.
    Mr. Barletta. Thank you.
    Chief Khan, as you point out in your testimony, because 
US&R teams are composed of local and private sector personnel, 
there have been serious concerns about liability and workers' 
comp issues. Yet in similar situations, as with the National 
Guard or the Public Health Service, many of these issues have 
been addressed in statute.
    Can you give us some examples as to why clarifying these 
issues for the US&R team members is important?
    Chief Khan. Thank you, Mr. Chairman. Yes, I can.
    The bottom line is that, when we put these teams together, 
if you have first responders, firefighters, paramedics, even 
police officers that come onboard, they typically are under 
that first responder umbrella. But for the technical rescues 
that we do, for the medical evaluations and procedures that we 
need, or for using the animals, the dogs, we need private 
citizens to join our teams. Many times they are not covered by 
the statutes.
    And so to provide the best talent and to have some sort of 
fallback in case they are injured in the line of duty, we feel 
that it is our obligation to provide them some sort of 
coverage. Right now it is unclear as to how we get them 
covered, and it makes applying and being participants in such a 
great program very limited to a lot of these people that are 
physicians and engineers and dog handlers.
    Mr. Barletta. And, Mr. Khan, even with the uncertainties 
regarding liability and compensation protections, US&R team 
members still respond when they are called to do so. What would 
happen, however, if any team members determined they cannot go 
because of these risks? Will the rest of the team deploy 
anyway?
    Chief Khan. We do operational ready evaluations. The rest 
of the team would deploy, but then again you are not going with 
critical components. Hopefully we would have some fallback 
staffing that we could rely on. But that is a gray area, sir, 
at best.
    I think the opportunity to shore that up lies within this 
subcommittee and the ability to fund those individuals that are 
taking a sacrifice away from their families, taking a chance 
and responding to the theaters that we go to. There are 
unsound, unsafe theaters that we respond to and there is 
liability associated with that, not to mention in addition, 
too, job security. We had one member who decided to respond 
regardless of his secure job as a civilian and lost employment 
because of his response with Arizona Task Force 1 to Katrina.
    Mr. Barletta. Thank you.
    The Chair recognizes Ranking Member Carson for 5 minutes.
    Mr. Carson. Thank you. Thank you, Chairman Barletta.
    Mr. Khan, you testified about the need for workers' 
compensation and liability protections for US&R team members. 
Would you please explain in more detail the type of situations 
where this is needed and how the lack of such protections 
impacts the ability of US&R teams to respond?
    Chief Khan. Thank you, Ranking Member Carson. The bottom 
line is if you go into--and I can best describe a scenario 
where you are going into a situation like Haiti or the World 
Trade Center where you have structural collapse, you actually 
are putting people into voids where other victims are in order 
to treat and rescue those victims. And you are asking these 
civilians to take the same risk and the same chances that you 
have trained firefighters or paramedics doing that are 
specially trained in rescue.
    They are covered under the local municipality's workman's 
comp insurance coverage. The civilians don't have that. If they 
get injured, many times they will be on their own. That makes 
it hard for us to recruit the best of the best to go on 
deployments with these teams so that we are not in need of 
those resources when we respond as a task force. And that goes 
across the Nation. Especially for the jurisdictions that don't 
have any or as many physicians or engineers to draw from, it 
becomes even more challenging, sir.
    Mr. Carson. Thank you.
    Mr. Courtney, do you believe, sir, that the grant guidance 
for the Metropolitan Medical Response System is responsive to 
the growing need for our metropolitan areas to develop the 
capacity for mass casualties?
    Mr. Courtney. Yes. We have relied on--I shouldn't say 
relied on--we have utilized MMRS funds through the MESH 
Coalition in a number of ways, largely to develop our programs. 
Our MCI protocol, our mass casualty incident protocol that has 
been redeveloped over the past year has really developed better 
communications between first responders and the hospitals. 
During a mass casualty incident our 24-hour duty officer is 
paged out, like a piece of fire or EMS apparatus. They directly 
communicate with hospitals to determine emergency department 
capacity. We provide that to on-scene commanders, and they are 
better able to make appropriate transport decisions, really 
with the ultimate goal of not overwhelming a single hospital 
facility.
    Mr. Carson. Thank you.
    Mr. Fisher, you mentioned the emerging use and capabilities 
of mobile DTV-capable devices. Are emergency alerts to mobile 
DTV devices able to target by geography and region?
    Mr. Fisher. Well, I can speak to the mobile DTV platform 
that is being created right now. It was very useful in Japan. 
It is widespread in Japan. And when they had their tsunami and 
nuclear crisis, people were hanging on everything that was 
coming across mobile DTV. As for is it addressable for a 
specific location, I would have to get back to you on that. I 
don't have a specific answer. It is not part of what I am fully 
aware of at this point.
    Mr. Carson. Thank you, sir.
    Mr. McCabe, I know that the broadcasters are working with 
cell phone companies, and I think most cell phones now have 
radio capabilities. There is a new arrangement now between 
Sprint and broadcasters, but I understand that other mobile 
phone operators may be reluctant to include an activated FM 
chip in mobile phone plans for alerts. Please explain the 
reluctance by these cell phone providers to the FM chips.
    Mr. Guttman-McCabe. Sure, Ranking Member. First of all, I 
think it is--we have taken to calling the industry an ecosystem 
over the last 5 or 6 years because it has changed so 
dramatically. I have been CTIA for 13 years, and it is--you 
know, 5, 5\1/2\ years ago, you didn't have an iPhone; you 
didn't have tablets. You can--what you see now didn't exist.
    The reality is our manufacturers, our handset 
manufacturers, manufacture devices for, you know, a wide range 
of carriers and countries, and they try to fit in a range of 
products, a range of services into the devices, so not--you 
know, obviously, with 32 handset manufacturers, they are 
competing with one another. And when we look at the issue of FM 
chip sets or issues like that, a DTV, a mobile DTV, whether 
there is a satellite chip in it, as you look at the range of 
capabilities or possibilities that can go into a phone, the 
reality is that choice is made both by the handset 
manufacturers, and to the extent that carriers are going to 
subsidize handsets, by the carriers looking at what is going to 
sell and what consumers are going to want. And so they offer a 
broad range of solutions, and the reality--or broad range of 
options. The reality is those change monthly because consumers' 
desires change monthly. I mean, things like, you know, 
facilitating Twitter or Facebook or the different photo sharing 
sites.
    And as we look at handsets, a great test case for FM chip 
sets is going to be Sprint's efforts with regard to putting in 
FM chip set. And if that sells and is successful, I have a 
sense that you will see it in many, many more phones. And if it 
doesn't, you will see it in less, and that is how the market 
works from--from this perspective.
    When we look at 32 different handset manufacturers that put 
hundreds and hundreds of handsets into the market at any one 
point in time, the reality is that diversity is king, and the 
ecosystem tries to chase or, if it can do it well, get ahead of 
consumers' tastes, and that is why you see an evolution, 
constantly evolving handsets. I mean, we have phones and 
tablets, and now we have phablets, sort of that split between a 
phone and a tablet that maybe can almost fit in your pocket. 
And what we see at our trade show shows us that what is coming 
is going to, you know, really boggle the mind. Handsets that 
fit on your watch, the ability to use a watch and not have to 
have a handset attached to it anymore.
    And so when we address issues like FM chip sets, we leave 
it up to that ecosystem, and the carriers will compete against 
each other as well as the handset manufacturers.
    Mr. Carson. All right. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Barletta. Thank you, Ranking Member Carson.
    The Chair recognizes Mr. Mullin for 5 minutes.
    Mr. Mullin. Thank you, Mr. Chairman.
    Mr. Fisher, obviously, there is no doubt the great work the 
local broadcasters have done. Just in Oklahoma, we know it 
saved many lives during the May tornados. And the question I 
have is to what extent or any did--did you experience or expect 
IPAWS to help in this? How is it helping? What cost did--did 
your company incur to put this in or did it--did it cost you 
anything?
    Mr. Fisher. Well, in Pennsylvania, we have a little bit of 
a unique situation. We have incorporated a statewide system 
that is based on EMnet, which we began about 10 years ago. 
EMnet ties basically every television station and every radio 
station in the State together through a common source, so we 
can receive alerts from local municipalities, State agencies, 
FEMA--PEMA, I should say, directly via satellite to each of our 
stations and it is addressable.
    Because we had that network in place, it was a rather 
simple case of interfacing IPAWS into our existing system, so 
stations in Pennsylvania did not have to invest--most stations 
did not have to invest in any additional equipment.
    If you would like more detail on that, I have the manager 
of our EAS system, EMnet system, here with us, and he could 
comment further if you would like.
    Mr. Mullin. Was there funding available if, say, stations, 
smaller stations that maybe didn't have the system already in 
place, was there funding available from the Federal Government 
to comply with this?
    Mr. Fisher. I am told no.
    Mr. Mullin. Do you know what the average cost would have 
been? Once again, I know I am kind of putting you in a 
situation, but what I am trying to get to is the fact that----
    Mr. Fisher. It cost $2,000 per station.
    Mr. Mullin. Per station?
    Mr. Fisher. Per station.
    Mr. Mullin. The fact that what I am trying to get to, is 
there is no question, and I don't think anybody is arguing, 
that we need to communicate together----
    Mr. Fisher. Yes.
    Mr. Mullin [continuing]. But we have a system going on and 
problems right now. I represent rural Oklahoma, and we have 
fire--fire stations that are all volunteer, we have police 
stations that are truly all volunteer. We have very small radio 
stations, and we are asking them all to spend money in one area 
and not providing them funding. And unfunded mandates that are 
coming out of this city is killing smaller areas. And I agree, 
we all need to be there, but what we really need to be looking 
to, if we are going to require this and we want this to happen, 
then we are going to have to find funding for it. I know that 
is a lot of conversations we are having up here today, 
obviously, but is it--do you see this being a problem down the 
road even with----
    Mr. Fisher. No.
    Mr. Mullin. How are you budgeting for this, or do you just 
kind of take on the chin when it comes in?
    Mr. Fisher. I would have to say that you are touching on a 
topic that is important to broadcasters. Essentially many 
things are passed that cost us a lot of money without much 
warning, so funding is an important issue. It is very difficult 
for small radio stations especially to have a regulation passed 
and then have to spend $2,000 that they weren't thinking of. So 
it should always be a consideration.
    The beauty of IPAWS would be that eventually, we wouldn't 
have to be changing on a regular basis to some other format. It 
is important to get to a format and then maintain it. And the 
importance of getting to that format, you need to hit it right 
on the money so that whatever is decided upon is universal and 
can last 10 or 15, 20 years' worth of time. We don't want to go 
out and buy the equipment and reinvent this 5, 10 years from 
now. It doesn't benefit anybody, and it creates a lot of 
issues.
    Mr. Mullin. I mean, we know technology is changing 
constantly, though. And so I appreciate your service, I mean, 
truly, getting it to the public and willing to invest and 
really out of your own pocket to make sure that the public is 
informed, because it is vitally important to us, especially in 
rural areas.
    Real quick before I run out of time, Mr. Guttman-McCabe.
    Mr. Guttman-McCabe. Yes, sir.
    Mr. Mullin. Hope I said that right.
    Mr. Guttman-McCabe. You did.
    Mr. Mullin. Kind of used to two names. My first name is 
Markwayne.
    So, currently, the wireless alerts include 90 characters. 
Is that right?
    Mr. Guttman-McCabe. Yes.
    Mr. Mullin. Can you--can the capabilities be expanded to 
other forms of data, such as audio or visual information, if 
needed?
    Mr. Guttman-McCabe. So, Congressman, the way the product 
was launched, it was sort of ``let's walk before we run,'' but 
one of the things we considered as part of the Alert Advisory 
Committee that put this together were, you know, what are the 
next steps, how can we evolve this system? There are several 
issues in front of the FCC's, let's see, the Communications 
Security Reliability Interoperability Council, it is a 
mouthful, but the CSRIC is looking at evolving and addressing 
sort of the next step of the service.
    Right now the way the broadcast system works within the 
wireless alert is a single 90-character message is broadcast 
out to everyone who is in an area. We wanted to make sure the 
technology was utilized in a way that, since our customers are 
mobile, that those that came into the area would get it.
    Mr. Mullin. So it is possible, we are just--this is just a 
first step. We are looking to go further with it.
    Mr. Guttman-McCabe. Correct. We are looking at evolving it 
to other areas.
    Mr. Mullin. Thank you.
    I yield back.
    Thank you.
    Mr. Barletta. Thank you, Mr. Mullin.
    Mr. Walz, you are recognized for 5 minutes.
    Mr. Walz. Thank you, Mr. Chairman.
    Thank you all for bringing your expertise. It is incredibly 
helpful, and each of you articulated very well. Mr. Fisher, you 
talked about, and I have witnesses before, the integration, all 
of you have, of things going together, and you mentioned, I 
think it is one of the outdoor advertisers, seems like maybe 
one of the oldest advertising, the billboard, but with the 
advent of electronic billboards, we have seen in Minnesota 
alerts go up and have successes within the hour because of 
that. And we all know, and that is an important thing.
    And the issue for me, and I think for many of my colleagues 
that is the challenge, and it has been the challenge whether it 
was rural electrification or getting roads, is economy of scale 
makes it very difficult for rural areas. And our fellow 
citizens who happen to live in incredibly small or 
unincorporated areas, Mr. Guttman-McCabe did an excellent job 
of how the market works on the FM chip sets. If there is going 
to be a need, they will do that. And one of the things is the 
market mentality does not support building cell phone towers 
for some of these areas or reaching them. And that is a reality 
that everyone up here gets that. So that is where there is the 
gap. That is where that fill in gap.
    And this is challenging to me. I know the primary entry 
points, the goal was to be to 90 percent coverage, which it 
will feel to me like all 10 percent is in my district that is 
not covered in 2015, but the fact of the matter is, for that 
one person, the 90 percent is irrelevant if they are not 
getting it.
    So I guess my question to you, and this is a very 
challenging one, goes back, again, to the beginning of, how do 
you serve rural areas when it comes to things that are no 
longer luxuries, electricity, paved roads, now being alerted to 
these situations? How do we do that? What is the model, and do 
you have some suggestion? Because we have talked in the funding 
issue, we have talked the market. How do we do it, if you can, 
if just--your expertise?
    Mr. Fisher. So if you are asking, from a broadcast 
perspective, I believe we do cover the areas quite effectively 
throughout the United States, because we are rather ubiquitous. 
There are probably very few places in the United States you can 
go that you can't pick up a radio station or a television 
station, and we carry those emergency messages in a very timely 
fashion. So I think from a broadcast standpoint, we are meeting 
that challenge and doing it very well.
    With the addition of mobile TV, the beauty of that will be 
that while you can watch television stationary now, and the 
mobile TV will be something that, as the marketplace evolves, 
will allow it to be on your iPhone or on your mobile device. 
And this is where things work together very well. When the 
wireless industry delivers a 90-character message that says 
something terrible is happening, tune to your local station, 
and you are in the middle of one of your rural areas, if they 
don't have a television or a radio with them at that moment, 
having that mobile DTV built into their smartphones will allow 
them to immediately tune without any connection to the 
Internet. Assuming the Internet has gone down, assuming the 
wireless went down now because something drastic happened, they 
still have that connection to the local broadcast station, 
either with mobile TV or with an FM chip, that allows them to 
continue to receive that information. After we have told them 
that there is something major going on, broadcasters are there 
to fill in the gaps: What do I have to do? Where do I have to 
go? What do I do for safety, because alerting them is just the 
first step?
    Mr. Walz. Your mobile TV, where is the cost point on that 
right now? Because this is the issue for mine, that they do get 
it; it is in Minnesota, but they get it out of South Dakota, 
Sioux Falls. They don't have cell phone coverage yet in many of 
these areas.
    Mr. Fisher. Right.
    Mr. Walz. What is the cost?
    Mr. Fisher. Well, mobile TV is in the process, stations are 
rolling it out. And there are some companies that are making--I 
believe it is Samsung has a unit now that will receive mobile 
DT signals in their wireless device, and some will receive 
terrestrial signals as well, so that even without mobile TV, 
you could receive DTV in your community, if you have a station 
that is on the air with just regular broadcast, some of the 
mobile devices could actually receive that. But the FM chip 
experiment that Sprint is now launching is also a great way for 
broadcast radio stations to reach that device, because 
everybody's attached to that device now. I mean, you can't 
leave home without it. The industry has done a great job with 
it. And if you had that extra utility of a broadcast TV and 
radio chip, just like you have the flashlight built into it 
that works when you need a flashlight, it is great, it is 
there. You don't usually carry a flashlight, but now you always 
have one when you need it. Broadcast television--broadcast 
radio is like that utility. I need it right now. Something 
major is happening; I am in a rural area. The cell tower is 
down, whatever; a broadcast television or radio chip will keep 
you in touch.
    Mr. Walz. Well, I can tell you, and those members up here 
who have received that alert, and maybe it is the new novelty 
of it where you can tone out the hard tone on the TV and turn--
you know, turn it down or whatever, the first time you get an 
alert on heavy weather with tornado warning, you pay attention 
to it. So, I mean, it is about habituating the public to that 
new.
    So I thank you all, and I appreciate you still continuing 
to push this forward for folks to get it right.
    Mr. Barletta. Thank you, Mr. Walz.
    The Chair recognizes Mr. Meadows for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    I would agree with my colleague opposite, the first time I 
got the alert, you know, I started looking over my shoulder 
and--and trying to figure out, well, how in the world did they 
know that it is coming at me? And so I would--I concur.
    And I represent a rural district, so, you know, when we 
look at--I represent the mountains of western North Carolina. 
And, you know, a lot of people, they look at population 
centers, and they say, well, that is what it is all about, but 
candidly, when you have a disaster in those rural areas, it 
becomes even more problematic with logistics on just how to 
serve it, how to reach out.
    But before I ask my question of Mr. Khan, I am going to 
come to you first, I want to thank the chairman. You know, when 
we deal with issues like this, nobody sees it as an important 
thing. It is not a high priority. It is not in--until there is 
a disaster, and then it comes back on the chairman and say, Mr. 
Chairman, why didn't you--you know, why weren't you proactive? 
So I want to say thank you for being proactive in doing this.
    And, Mr. Khan, I want to focus to the US&R teams. Are they 
funded exclusively by the Federal Government, or is there a 
cost sharing with--with local jurisdictions on that?
    Chief Khan. Sir, there is a cost sharing. Some of it is 
tangible, some of it is not tangible. I can use my jurisdiction 
for example. As a metropolitan department, we share--it is 
almost an even split, without the deployment aspect of it, just 
maintaining the Type 1 team of about 70 members. To staff that, 
we have a little over 200 members in our system. The bottom 
line is, is it costs us just roughly what it costs the Federal 
Government to keep them up and running. What is not tangible 
would be the chief officers----
    Mr. Meadows. Right.
    Chief Khan [continuing]. The training, the backfill welder 
training, things of that nature, which we get the reward, as I 
said in my testimony, of the experience for the training, the 
deployments themselves and some of the physical resources that 
we get. So we feel that that is a pretty even split in Phoenix, 
and just the experience of being part of a national response 
team.
    So for us to go back to our elected officials and our 
policymakers in Phoenix, we can justify our participation in 
the program.
    Mr. Meadows. So let me--I know US&R teams have been 
deployed to many disaster areas, including the World Trade 
Center, you know, Hurricane Katrina, Hurricane Sandy. Can you 
explain to me how these teams are chosen, because, you know, we 
have got uniquely defined groups, and then how are they called 
up and deployed?
    Chief Khan. Well, the process is actually managed out of--
out of home office, the program office on C Street, through 
FEMA. There is a branch chief that coordinates it, and it is 
done through Mr. Farmer, Mr. Fenton, and Chief Endrikat. And 
then there are three regional sponsoring agency chiefs, one in 
the west is Ray Jones. He is soon to be retired. The central 
region is myself. And the eastern region is Chief Steve Cover.
    As those orders come in, we will respond to the three 
closest teams. So if something happens in Florida, you are 
going to get the Florida teams to respond, unless somehow they 
are out of service because of the storm itself. Typically, we 
will send the three closest teams, and then we have a box 
formula that is a rotation, and those members in the box 
formula as it rotates will be basically a numeric number that 
you have that you will rotate out, based on the number of teams 
you need. For Colorado, for example, you have got the 
surrounding teams----
    Mr. Meadows. Right.
    Chief Khan [continuing]. Then you went to the box response.
    Mr. Meadows. All right. So you have, it sounds like, a 
pretty good system for calling up and deployment. One of my 
concerns really has to do with the evaluation of the 
effectiveness of that response. And I am not asking you today 
in today's testimony to point out good and bad response teams, 
but I would be--if you could get back to the committee with 
some recommendations on where you can see how we evaluate that 
better, because, obviously, when the command center makes a 
deployment, there are some who are extremely good and there are 
some that have perhaps logistical challenges. And I would love 
for you to, if you want to comment, you can, and if not, come 
up with some recommendations for the committee on how we can 
address that.
    Chief Khan. I can give you a half answer.
    Mr. Meadows. OK. A half answer is better than no answer.
    Chief Khan. We do an operational ready evaluation, which 
allows us to know if the teams are ready to be deployed. That 
is an ongoing process that we work on through home office here 
in Washington, DC, and through the strategic committee, which 
oversees the overall operation. Those give us an indication 
whether teams are ready to respond or not.
    The other half of your question, I will defer to home 
office here and have them get back to you, sir.
    Mr. Meadows. I thank the Chair's indulgence.
    And I yield back.
    Mr. Barletta. Thank you, Mr. Meadows.
    The Chair recognizes Ms. Edwards for 5 minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and to our ranking 
member for holding this hearing. I want to thank our witnesses 
for being here, but I have to tell you, I have been searching 
for the right word this morning to figure out how I am feeling 
about this, and I think the right word is flummoxed as to why 
we are here this morning on such an important subject of 
emergency alert that doesn't have a Democrat or Republican 
behind it, but what we don't have sitting at this table is a 
representative from FEMA. And the reason that we don't and the 
reason that you could only give a half answer, and with all 
due----
    Mr. Meadows. Will----
    Ms. Edwards. No, I will not yield. With all due respect to 
my colleague, a half answer is not acceptable when it comes to 
emergency alert.
    And the reason that there is not a--there is only a half 
answer and that our witnesses are here sort of challenged to 
explain how it is that FEMA works in these circumstances is 
because FEMA is not at the table because the Government is shut 
down. And the Government is shut down because we have a handful 
of renegade colleagues who are determined, bound and determined 
to take this country down, to shut down this Government, and we 
ought to have FEMA----
    Mr. Barletta. Ms.----
    Ms. Edwards [continuing]. Have--I have my----
    Mr. Barletta. Please----
    Ms. Edwards [continuing]. My 5 minutes.
    Mr. Barletta. Would you please keep our comments----
    Ms. Edwards. I have my----
    Mr. Barletta [continuing]. To the hearing, please.
    Ms. Edwards. With all due respect, I will reclaim my 
additional 5 seconds to finish my statement as a Member of this 
House of Representatives.
    And I will tell you, I want to know, because I have gotten 
one of those alerts. I have been around our beltway and gotten 
an alert for a hurricane--a tornado that was in fact coming 
right at me. I have gotten an alert that came at the same time 
on my--on my car device; I don't even know how it works. And so 
I want to answer those questions, because I think it is 
important for the American people, but I have to tell you this: 
It is unacceptable in this country for almost a million workers 
to be out of jobs today because the Government is shut down. It 
is unacceptable that veterans, seniors, people who are--
actually have claims in to FEMA for disaster response and 
don't--can't have those claims moved because the Government is 
shut down. This is completely unacceptable.
    And it is my colleagues on the other side of the aisle 
trying to have a pretense of a hearing in the face of a 
Government shutdown; this is not right for the American people. 
And I have to tell you, everybody on that side and on this side 
knows that we could have FEMA at this table today if we put a 
clean continuing resolution on the floor that fully funds FEMA 
and all of our Government agencies, that takes care of services 
for our veterans, our seniors and children who are going hungry 
today because of a Government shutdown. It is unacceptable in 
this country that we have a handful of renegades who are 
running this country----
    Mr. Barletta. Ms. Edwards----
    Ms. Edwards [continuing]. Running this----
    Mr. Barletta [continuing]. Please keep your comments----
    Ms. Edwards [continuing]. Running this Congress----
    Mr. Barletta. Please keep----
    Ms. Edwards. Renegade is a word. Renegade is a word, and 
that is what they are doing. They are running this country, 
they are running this Congress, and they are running us in the 
ground, and it--and the American people find this completely 
unacceptable. And as a Member of Congress who represents a lot 
of Federal employees--and I represent FEMA employees in my 
district who are sitting at home today; they are at home today. 
They can't come to work and do the job of the American people 
and serve the American people, and the reason that they cannot 
come is because some small band of people have decided that 
they are going to shut everything down because they want to 
deny health care to the American people? This is completely 
unacceptable. So I want to feed our young children and our 
women, infants and children.
    Mr. Barletta. Ms. Edwards----
    Ms. Edwards. I want to feed our women, infants and 
children, who deserve to have----
    Mr. Barletta. Please--direct your questions to our 
witnesses, please.
    Ms. Edwards. I want to make certain--I have a right to use 
my time the way that I want, Mr. Chairman--who would--who 
should have the ability to get services in this country; our 
veterans, who should have the ability to make sure that they 
have educational and avocational counseling and mental health 
services; to make sure that our emergency responders are able 
to respond appropriately should there be an emergency.
    And my district is a home to the--to NOAA and to the 
weather center. And what if there is an emergency? Sure, we can 
monitor satellites, but do we have all hands on deck? We do not 
have all hands on deck. And I have to tell you, it is really 
disturbing.
    And I respect the witnesses who are here today. I have work 
closely with CTIA. I think I am one of your award winners, as a 
matter of fact. I believe in what our broadcasters are doing in 
terms of public service and meeting their public 
responsibilities.
    And, you know, to you, Mr. Chief, I appreciate what you are 
doing to make sure that our emergency response system works, 
but not to have FEMA at the table because of a Government 
shutdown is unacceptable.
    And I yield my time. And I would love to have you back so 
that we really can ask you questions that are important for the 
American people. Thank you very much.
    Mr. Barletta. Thank you, Ms. Edwards.
    We will begin our second round of questions, and I will 
begin.
    Mr. Courtney, timely and accurate alerts are critical in 
responding to a disaster. For example, in Wilkes-Barre, 
Pennsylvania, a proper alert to deploy a river gauge on the 
Susquehanna River was not issued in Tropical Storm Lee. This 
resulted in significant flooding.
    As a user of alerts and other information in the context of 
mass and medical care, how critical is it for you to receive 
accurate and timely alerts and information?
    Mr. Courtney. Thank you for that question, Chairman 
Barletta. It is absolutely critical that we receive timely 
information. We are not only consumers of the emergency alert 
system, of IPAWS, but we also constantly disseminate 
information to medical providers, to hospitals, to first 
responders, oftentimes proactive in advance of severe weather 
coming, things like that.
    I think there is an opportunity to further develop more 
targeted messaging through the public alert system. We operate 
a number of programs that are looking at, you know, how do we 
pre-warn vulnerable populations who may be, you know, dependent 
on electricity due to medical devices that they have in their 
homes, you know, the opportunity to be able to target messaging 
to them, to, you know, get to power safe locations, to, you 
know, ensure that they have backup battery power for, say, home 
ventilators, things like that; it is critical that that 
information be sent out and targeted if we can.
    Mr. Barletta. Thank you.
    Mr. Fisher and Mr. Guttman-McCabe, this question will go to 
you. How important do you think public alert--public alerts are 
to saving lives? Do you think a modernized and integrated 
public alert system will be able to save even more lives than 
the current system we have?
    Mr. Guttman-McCabe. I guess, I will go first, Mr. Chairman.
    The way we look at the system is we look at it as a range 
of complements; the IPAWS system to offset sort of the central 
point that pushes messages out to a significant range of 
different options for consumers to gather that information. So 
we think it is unbelievably valuable. Our industry actually 
signed on and committed to doing it voluntarily before we even 
knew what ``it'' was. The deadline for committing to deliver 
emergency alerts came before the committee finished determining 
what was going to be delivered, what it was going to cost, what 
impact it would have, and we took that as part of our sort of 
social responsibility and are happy we did.
    We look at the systems--or at the different ways of 
delivering the technology as real true complements to one 
another. And as I was talking to our CEOs, when we were sort of 
pitching the idea of supporting legislation, it was around the 
time of the tsunami in south Asia. And one of the stories that 
I read talked about that if the people had been 400 yards off 
the beach, over 90 percent of them would have survived. And so, 
for us, it was just a matter of you just need a little bell 
ringer at times. You don't need full information; you just need 
to know--and, of course, on that beach, no one had a--people 
don't have radios. They don't have their television. They don't 
have their SSTRS system, but many have their mobile phones. And 
we looked at wireless as being a complement to that system and 
have embraced it and think that, you know, modernizing IPAWS on 
the IPAWS side of it and then working in coordination with the 
WARN Act portion on the wireless side is a sensible way to move 
forward.
    Mr. Barletta. Mr. Fisher?
    Mr. Fisher. Yes. I would say it is obvious that as we 
continue to get more platforms included in EAS and with IPAWS 
that more lives will be saved, because we are communicating in 
every possible way at any possible time we can. But as we are 
progressing forward, we always have to remember that we need 
redundancy in whatever system we are developing, because 
nothing's 100 percent, and in an emergency, you can count on 
things failing. I am sure that Mr. Khan can definitely attest 
to that.
    And in communications, while wireless is very good, and 
Internet is good, a lot is happening on that pipeline now. We 
have to remember there are other means we have to continue to 
support as backups that get around that, because we are getting 
so reliant as a Nation on data, that we think we plug things 
into that Internet connection, and it is always going to make 
it from point A to point B. And if something substantial 
happens, wire cut, fiber cut, international espionage, 
terrorism, whatever, disrupts that data, we can't have our 
communications. Our emergency communication is disrupted.
    In Pennsylvania, we are still waiting for a PEP station, a 
Primary Entry Point, which is one of those means of a backup. A 
PEP station is a broadcast station that is hardened and ready 
for that eventuality. It is fed by both IPAWS and also by a 
dedicated phone line to an undisclosed location for security 
reasons, so that in the event everything fails, the PEP station 
will still be out there to communicate and broadcast emergency 
messages that other stations can pick up in a daisy chain 
fashion and get across the State. But in Pennsylvania, we are 
without that right now. And we are hoping that as FEMA expands 
the PEP network of stations, which I believe there are probably 
70 at this point in the country, that at least we get one 
station, especially in central western Pennsylvania, areas that 
would be without communications in the event all these other 
systems that we are working on fail.
    Mr. Barletta. Thank you. The Chair recognizes Ranking 
Member Carson for 5 minutes.
    Mr. Carson. Thank you, Chairman.
    Mr. Courtney, in your opinion, do you think that the WEA 
system should be used to alert the public to potential 
epidemics of infectious diseases or pandemics?
    Mr. Courtney. Certainly, as long as--and I think Mr. 
Guttman-McCabe pointed this out, you know, as long as that 
information can be actionable, as long as folks know how to 
respond and what they should do as a result of those--those 
messages that are pushed out, most certainly, you know, 
awareness in creating that common operating picture, like I 
talked about earlier, that we do every day is really critical 
for, not only the public, but for emergency responders, first 
responders to be able to respond effectively to an emergency 
event.
    Mr. Carson. Mr. McCabe, given the success of the rollout of 
WEA, how do you balance the need to alert the public about an 
emergency without overwhelming the public with so many messages 
that they begin to ignore those alerts?
    Mr. Guttman-McCabe. Sure. And thank you, Ranking Member. I 
think Mr. Courtney said it perfectly, that the buzz word being 
``actionable.'' You want to make sure that they are alerts that 
actually have a direct impact and people can respond to. I 
remember as I was testifying years ago on the WARN Act, I 
collected a binder full of alerts that came from two local 
areas--I won't say, because one we are in, and one I live in--
but I remember getting alert about a rapid dog. I think they 
meant rabid dog, but they--so I got an alert about a rapid dog. 
Now, to make matters worse, I actually found out that the alert 
was 3 days old.
    And so you hit sort of what we call really a threshold 
issue, which is, make sure we don't go down the path of the car 
alarm syndrome, right. You know, no one pays attention to car 
alarms anymore. If you hear a car alarm going off, you just 
keep walking past. We want to make sure that there is a 
balance. And we think Congress struck that balance: It was a 
Presidential alert, imminent threat to health or life, and 
AMBER Alert, and those were the only three categories. And as 
long as you can fit into that center category, which is where 
the overwhelming majority of alerts fit, I think then that is 
sensible.
    I would--we actually got one out of a local county that 
said it was flu season. I don't think that is one you want to 
send, because you are diminishing the value of the actual 
alert. And we want people when they get those alerts in the 
middle of the night, and they are awakened for the first time, 
yeah, you can be angry that you are awakened, but you can 
realize that you were awakened for a reasonable--a reasonable--
or a good reason. And we look at the AMBER Alerts. We have had 
some people complain about being awakened at 1:00 or 2:00 in 
the morning because of an AMBER Alert. We just had a child that 
was recovered at 4:00 a.m. with an AMBER Alert that went out at 
2:00 a.m.
    And so for us, there is a balance. You have to--the alert 
originators have to strike and recognize that balance. And you 
want to make sure, as Mr. Courtney said, it is actionable. I 
think that is key.
    Mr. Carson. Thank you.
    Mr. Fisher, Pennsylvania has developed a hub-and-spoke 
system for distributing emergency alerts in addition to daisy 
chain--a daisy chain system used through the PEP stations. How 
do you avoid redundancy and mixed messages when both systems 
are effectively used simultaneously?
    Mr. Fisher. I am sorry. Would you ask--would you ask the 
last part of that question again.
    Mr. Carson. How do you avoid redundancy and mixed messages 
when both systems are used simultaneously?
    Mr. Fisher. I would like to ask Matt Lightner, who is 
actually our engineer----
    Mr. Carson. OK.
    Mr. Fisher [continuing]. PEMA and broadcasters employ. He 
works directly with PEMA and knows every detail about----
    Mr. Carson. Sure.
    Mr. Fisher [continuing]. That system, and can answer this 
question.
    Mr. Carson. Thank you, Mr. Fisher.
    Mr. Barletta. Could you please state your name for the 
record?
    Mr. Lightner. Sure. My name is Matt Lightner. I am the 
chairman of the State Emergency Communications Commission in 
Pennsylvania.
    Our EMnet system we deployed in 2003. It actually was a 
model for the Nation when we deployed it. It is a satellite-
based system, it is in all 67 of our county emergency operation 
centers and our State emergency operations center. It allows 
any of our emergency operations centers to instantly gain 
access to all of our broadcasters, via satellite and via 
Internet. So if the Internet is down, the system would work 
over satellite directly to the broadcasters.
    All the messages are time stamped; so when a message is 
sent out, if it has arrived via multiple different means, the 
device on the other ends says I have already received this 
message from EMnet. Now I am getting it from IPAWS as well. I 
am going to ignore this message; it was already sent to the 
public.
    Another great thing with the EMnet system is the reporting 
capability. Sending a normal emergency message, the emergency 
manager doesn't really know if the message went out over the 
airwaves. The EMnet system gives us response back immediately 
saying, this station carried your message, and it went out over 
the air, and the public was notified. So it is a great system 
that we have deployed in our State.
    Mr. Fisher. I would like to follow up on the comment Mr. 
McCabe made about not overusing the system. One of my comments 
in my testimony was training is essential. It is something we 
have learned in Pennsylvania.
    When you give so much capability and so much ease to use 
the system, it is easy for someone who is not trained to alert 
you that there is a rabid dog or it is flu season, and that is 
a frustration to the entire process. People tune it out. People 
won't pay attention anymore. And as he said, it becomes a 
distraction. So the education and the communication on how to 
use this, when to use it, what is appropriate, what is not, 
restrains the inappropriate use so that when it goes off, you 
pay attention, is very critical.
    Mr. Carson. Possibly different tones and different buzzes 
for different messages or different alerts?
    Mr. Fisher. Well, a low-priority message, like the rabid 
dog or flu season, is a nonpriority, that could be a text, a 
tweet, it could be broadcast just as an informational thing on 
radio without activating the EAS system.
    EMnet actually has a second channel that we have just for 
that purpose, so if a county wants to tell a station something 
that is not on the level of an emergency alert, but they want 
to communicate with us that this area is having this issue 
right now, please ask people to stay out of it, we actually 
have a secondary path that they can communicate with a station 
and let us know that information so a disc jockey can just say, 
oh, by the way or something can be done at a lower level.
    Mr. Carson. Thank you, gentlemen.
    I yield back, Mr. Chairman.
    Mr. Barletta. Thank you, Ranking Member Carson.
    The Chair recognizes Mr. Mullin for 5 minutes.
    Mr. Mullin. I really don't have anything. I am just 
listening. Thank you.
    Mr. Barletta. OK. Thank you, Mr. Mullin.
    The Chair recognizes Mr. Walz for 5 minutes.
    Mr. Walz. I follow Mr. Mullin.
    Mr. Barletta. OK. Thank you.
    Mr. Fisher, last Congress, the National Association of 
Broadcasters supported IPAWS reform, and you mentioned in your 
testimony the importance of having a national working group for 
IPAWS, as proposed in the reform legislation. Such a working 
group would be composed of FEMA and other Federal, State, local 
and private sector stakeholders to ensure IPAWS continues to be 
developed in a way that makes sense. Why is this important?
    Mr. Fisher. Well, personal experience, I have been in 
broadcasting for 37 years. I have watched the evolution of EAS. 
Fortunately, I was after CONELRAD, so I can't tell you anything 
about that. I am not that old. But I have watched it evolve 
through to where we are now with EAS. I have been involved with 
multiple committees, and I have watched what happens when you 
get stakeholders together in a room who can exchange 
experiences. And we meet once a year, occasionally twice a 
year, at the PEMA headquarters; that is Pennsylvania Emergency 
Management Agency in Harrisburg, to bring all the stakeholders 
together, the State police, fire officials, National Weather 
Service in our area, broadcaster representatives. And they are 
just representatives. It is a room with maybe 10 or 15 people. 
And the communication that goes on there helps us to evaluate 
what worked last time when we had to use the system, what needs 
to be changed, and also talks about who else do we have to 
include into the system to make it more robust, including at 
one point, we discussed how to get wireless onboard. How can we 
get the billboards onboard? Because we are trying as a group to 
work out how do we reach the American people. We get along 
pretty well. We have developed relationships, and it goes back 
and forth. And it has helped make a system, I think, in 
Pennsylvania, not to toot our horn too loud, a very robust, 
solid system that broadcasters can get messages out and 
emergency officials can get messages out in a very efficient 
way.
    Mr. Barletta. Mr. Guttman-McCabe, one of the key advantages 
of a modern digital alert system would be the potential to geo 
target alerts to only those people in the immediate danger area 
and avoid over-alerting people that are not directly affected.
    Why do you think--what do you think about that concept, and 
what are some of the technical issues involved with geo 
targeting alerts to smaller locations?
    Mr. Guttman-McCabe. Sure. Thank you, Mr. Chairman. One of 
the things--so I happen to benefit from being part of the Alert 
Advisory Committee that Congress established when we put the 
original rules together, and one of the things we debated or 
discussed, I guess--not debated but discussed in great detail 
was geo targeting. And what we ultimately came down to was to 
begin--it goes back to the ``walk, don't run'' thought I 
mentioned before--was let's begin at the county level. There is 
nothing magical about a county, but we decided to pick a county 
level, and that was the area that we were going to originally 
direct alerts to.
    Already a number of the carriers even further geo target 
their alerts, and the CSRIC is actually looking at maybe sort 
of formalizing that, but in our world, you have to realize that 
because of the nature of our devices, our constituents are 
mobile, and so if you want to alert, you know, an area in the 
northeast of DC, the reality is you can't only send that alert 
to the northeast, because by the time the alert goes out, 20 
percent of the population has moved into the northeast and 20 
percent of the population has moved out.
    So what we have found over time is that even with the 
capability to more--to have a more granular geo-targeted alert, 
we found that States or counties over--you know, take an area 
where they think the event might be happening and then pick the 
half dozen counties around it. And when we saw--I think all of 
us watched on TV that young woman who was kidnapped, a lot of 
the alerts went out from State--as they were realizing she was 
being moved to different States, alerts were going out 
statewide, because no one was sure which county she was in.
    So I think having the capability to geo target more 
granularly makes sense, and I think in practice, it probably 
won't be used as often as we might think, because the 
constituents, because the users are mobile. And you certainly, 
you know, if you look at what just happened in--around the 
world with the attack on the mall, you don't want to just alert 
people at the mall; you want to alert everyone who might be 
driving to the mall. And so, you know, you want to make sure 
that, in essence, at times you over-alert because of the mobile 
nature of the consumers, but having the capability makes sense. 
We are investigating it. We are looking at how you would, you 
know, operationalize that.
    Mr. Barletta. Thank you.
    The Chair recognizes Ranking Member Carson if he has 
further questions.
    Mr. Carson. No.
    Mr. Barletta. Thank you. I would like to thank all of you 
for your testimony here today. Your comments have been helpful 
to today's discussion.
    If there are no further questions, I would ask unanimous 
consent that the record of today's hearing remain open until 
such time as our witnesses have provided answers to any 
questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today. If no other Members have anything to add, this 
subcommittee stands adjourned.
    [Whereupon, at 11:48 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
